No.

FILES'
JAN 0 k 2021
IN THE
SUPREME COURT OF THE UNITED STATES

^^-rnetote1:Vb&

— PETITIONER

(Your Name)
vs.

sW-lSffflT

y^Pill@XJL RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

t&ak-

VtuAniaan -finsel: ^

&

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUft CASE)
PERRON FOR WRIT OF CERTIORARI

-C9M r»Jha&\
(Your Name)

SHMtA TfrieAUll^. ~P>aaE>
(Address)

rugsreeFiBaMW ;h i °tens /

If

(City, State, Zip Code)
RECEIVED
(Phone Number)

o

JAH 2 2 2021
9!gggi.°lcOURCT^

/

QUESTION(S) PRESENTED

we wish for answers to our questions presented in kind and in writing, by mail, in reasonable time, to
our address, properly signed and dated, please and thank you. We are only here learning how the
process truly works or does not.

How can a STATE AGENT continue ITS threats and bullying with eleven new in-secret felony
charges make an invalid cause valid?
If we don’t understand and never understood the charges against us, how can STATE AGENTS tax us
continuously for twenty-five years, maybe in perpetuity?
How can STATE AGENTS cause so much irreparable damage to us and think we would concede to
more bullying?
When jurisdiction is challenged and goes unanswered is that considered denial of due process or
something else?
When THE JUDGE is named fiduciary/trustee in case and moves the case against the holder in due
course, what is it considered?
STATE AGENTS made no mention or new secret/not so secret felony in regards to our objections
filed to PRESENTENCE INVESTIGATIVE REPORT, or did IT?
Are all equal before and under the law or are SOME more equal than others?
When one STATE AGENT uses another STATE AGENT to steal a peoples' person and purse from the
common area of the court to force a plea autograph and snatch a license without jurisdiction is it
considered illegal search and seizure or terrorism with a splash of racketeering?
When a STATE AGENT goes against THE CONSTITUTION isn't IT waring against THE
CONSTITUTION?
When a STATE AGENT ignores majority of documents and numerous affidavits filed and calls the
rest missives and proceeds to move a case forward when IT is named TRUSTEE/FIDUCIARY is IT
foiling ITS due care clause, or something else?
Is it a violation of due care clause when a STATE AGENT supports the illegal acts of another STATE
AGENT by being complacent and say allows the perpetration of the people to continue knowing it is

Thank you agafr^Tn allvaM^Ia^yt^ew Year!

o

LIST OF PARTIES

^ AILpa^esap^arJmthe^tion of the case on the cogr page. „
[ ] AH parties do not appear in the caption"case on the^covePpa^k A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

P/Lg

CL^SG* 44-

> S jzl Jz.<3|<S
Z0(Q -003'Zte-FU ^
Zol°\
z°{“ “00333S_W4*r Mo mU^kM^^Vo/z3/££/O)
Z£><^ —CO'Sorvcieesu^jb ^ t j/s/2o/^
•2020-030^5^ _
-000^0)1
'ZJD'Z-O- <cO [ \

fgS^sfete

ZP20-KXXB&-F

J2020

20-20.001^5^ -f

111 (-^20

&

2020

I2.h I®520

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION
*—

r

AvAVWVes e,rfei^ - INDEX TO APPENDICES

vA\03A\gon ^p^erAe. Q&oigir

APPENDIX A

&

APPENDIX B

^

APPENDIX C

~i sz£> 2i
* *V

APPENDIX D

o«i<ai»ia^
1

APPENDIX E

APPENDIX F 5bQ£BT

Vj ©ill ViQ^fcAK^ ,
-b ^toDOQS-"

fecS\f¥^ Q&Ses Kki So £ofMPo4- A
M
KppejJUy. ft DV\V>\OC\S<^o &s>(\a oQJde^),

0 .'

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES

>/s O.d
US 3HU (zoocT)
\iS. 'Lovez..(ez c-ft.42,
2SH b.A .-td (8^
’

7

Veo(^ \J5. 9^,73 V.3A 432, %7
(QA .7_gc2>)
7>eu^' \)s.

STATUTES AND RULES

* 4
OTHER

7r\Q3$L~lbA
VteJfiaXN
O

uansuw

id)

^efesr^

/

AUTHORITIES CITED

CASES
Enforcement of Corporate statutes by local, state and federal law emforcement officers are unlawful
actions being committed against the soverign people and these officers can be held personally liable for
their actions. Bond vs. U.S. 529 u.s. 334 (2000)
Supreme courts ruled “Without Corpus delecti there can be no crime””In every prosecution for crime it
is necessary to establish the “corpus delecti”, i.e., the body or elements of the crime.” People vs. lopez,
62 Ca.Rptr.47 254 C.A. 2d 185.
In every criminal trial, the prosecution must prove the corpus delecti. Or the body of the crime itselfi.e. the fact of injury, loss or harm, and the existence of a criminal agency as its cause. People vs. Sapp,
73 P.3d 433,467 (CaL2003)
Here on record, Common Law si the real law., supreme law of he land, the code, rules, regulations,
policy and statutes are “not the law”- Self v Rhay, 61 Wn (2d) 261

OTHER
All crimes are commercial 27 CFR 72.11
No one is bound to obey an unconstitutional law.
Michigan State Constitution article one section 13, a suitor in any court of this state has the right to
prosecute, or defend his suit, in his own proper person.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
[ ] For cases from state courts:
The opinion af the highest state court to review the merits appears at
Appendix 'H to the petition and is
reported at__^
_____________ ; or,
[ 3 has been designated ror publication but is not yet reported; or,
[ 3 is unpublished.
court
The opinion of the _
to the petition and is
appears at Appendix
[ 3 reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

0

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was____________________ .
[ 3 No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including______
(date) on
in Application No.___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
1$ A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix _j£X-—
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

&

/

CONSTITUTIONAL AND STATUTORY PROVISIONS ENVOLVED
FOURTH AMENDMENT - The right of the people to be secure in their persons, houses, papers, and
effects against unreasonable searches and seizures shall not be violated, and no warrants issued but
upon probable cause, supported by oath or affirmation, and particularly describing the place to be
searched and the persons of things to be seized. No probable cause possible, and one big violation ab
anito, nuk pro tunk.
FIFTTH AMENDMENT - No person shall be deprived of life, liberty, or property without due
process of law: nor shall private peroperty be taken for public use without just compensation. Fraud
from the beginning. STATE AGENTS conspired to pirate our liberty and property without jurisdiction,
without contract and without due process of law.
SIXTH AMENDMENT - In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial by an impartial jury of the state and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted the the witnessess against him; to have compulsory
process for obtaining witnesses in his favor; and to have the assistance of counsel for his defense.
STATE AGENTS denied us our counsel of right, denied us our right to face our accuser (because
there was NOT one) denied our right to a trial by jury by illegally bullying us into signing one sided
undisclosed contract we would NOT have agreed to under any other circumstance. Especially since we
demanded full disclosure of any possible contract. The PSR was at least 144 days late. STATE
AGENT MAROUN JOSEPH HAKIM showed us HIS copy of the PSR (along with an envelope
from STATE AGENT RICHARD CARETTI #31357 we had no time to open) minutes before trial
and let us write upon it Then took it back and said we couldn't have a copy of our report. Then with a
short exchange of swear words it was time for trial Needless to say it didn't go welL
SEVENTH AMENDMENT - In suits at common law, where the value in controversy shall exceed
twenty dollars, the right of a trial by jury shall be preserved, we were denied a trial by jury by STATE
AGENTS. The value in controversy well exceeds $20.00.
EIGHTH AMENDMENT - Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishment inflicted. $47,807.20 not including legal fees and counting. $5000.00
was a ridiculous amount to raise on the spot, it ruined our last three Christmas’s. Thirty-two two hour
visits to the criminal sexual conduct counselor. TWENTY FIVE YEARS of reporting to the state
police and fees for the criminal sexual conduct registry. Five years of bi monthly probation visits and
fees, we were publicly abused, cruel and unusual punishment? we can prove this beyond a reasonable
doubt, we just learned this day STATE AGENTS have opened eleven new bogus case numbers to tax
us with. Latest one filed November 23,2020, talk about inflicting cruel and unusual punishment. When
does it end. We just keep standing up to the relentless angry bullies who are acting above the law.
THIRTEENTH AMENDMENT - Was supposed to end slavery. Apparently it is alive and well. We
are imprisoned without consent. All debts prepaid by our trust, then paid again out of our pocket, so,
double jeopardy. STATE AGENTS conspired to commit heinous acts against us for personal gains.
As for any STATUTORY PROVISIONS, man on the land is not subject to statute or code, and is not
within it's contemplation. Whatever THEY made-up/pretended does NOT hold any water without a
witness/corpus delecti. Every paper we file and mail, the more damage we incur, the more liability
regarding THE TRESPASS FEE SCHEDULE AND REMEDY we filed September 9, 2019. To date
it remains our only light at the end of the dark tunnel.

O

STATEMENT OF THE CASE
we hereby depose and testify, we committed NO crime, we were originally accused of a $500
misdemeanor. STATE AGENT RYAN ZEMKE (whom we never met) signed STATE AGENT
WILLAIM HARDING’S overcharges (TWO 20 YEAR FELONYS). we stand wrongfully accused of
abducting a child for immoral purposes when there is no child involved, only STATE AGENT fraud
and blatant lawless violations of the statutes and codes to which STATE AGENTS are subject, we
required full disclosure if there was to be ANY contract, we did NOT consent to proceed, we were
criminally bullied and raped (absurdly violated) for our autograph on a one-sided undisclosed contract
(plea NOT voluntary), we voided this commercial contract the next day and every signature since with
a TRUTH AFFIDAVIT IN THE NATURE OF SUPPLEMENTAL RULES FOR
ADMINISTRATIVE AND MARITIME CLAIMS RULES C(6). STATE AGENTS departed from
the central requirements of law and are in violation of clean hands doctrine without a valid warrant,
without a victim, knowingly and illegally delaying and depriving us of our right of procedural due
process guaranteed by the CONSTITUTION OF THE UNITED STATES.
we challenged jurisdiction. All of our orders to produce were ignored. Expatriation is what was broken

when jurisdiction was demanded and not met with an answer, we rebutted all presumptions, we filed
NOTICE OF DECLARATION OF CANCELLATION AND REVOCATION, we filed a NOTICE
OF REGORATORY APPOINTMENT, we filed a COUNTER-CLAIM. We filed an AFFIDAVIT
NOTICE OF LIABILITY REGARDING TRESPASS FEE SCHEDULE AND REMEDY, we
motioned for a STAY OF SENTENCE, we filed a A4V NOTICE OF DISHONOR AND
CRIMINAL CONTEMPT OF COURT CRIMINAL COMPLAINT, we filed a FIRST AND
FINAL WARNING, we filed a NOTICE OF SETTLEMENT AND CLOSURE OF ACCOUNT, we
filed a NOTICE OF RAGORATORY ACCEPTANCE FOR HONOR, we appealed, we appealed
again, we filed numerous affidavits, all unrebutted and stand as truth in case, as well as. many other
documents we served on all parties as relevant to our cause. According to morally flacid turpis arbitur
RICHARD CARETTI #31357 all our instruments were nullies and voidies. We stand upon our
instruments morally errect.
we obtained a copy of the PSR March 13, 2020 (114 days after sentencing) not timely before
sentencing as prescribed in USCS RULE 32. we filed our objections to the PSR April 13, 2020 as
prescribed in USCS RULE 32.
This has been a truly gross miscarriage of justice, our liberties continue to be illegally restrained, we
have been irreparably damaged. So far our itemized damages amount to over $47,807.20 (not
including our private attorney generals advisory fees). Our life will never be as it was before
December 13, 2018. we demand remedy.
we will be filing a HABEUS CORPUS under 28 U.S.C. § 2254. we will make a federal case under
TITLE 42 (already filed in case) will name any STATE AGENT who has abrogated his or her due
care clause of their oath, we will start the commercial lien process, we will file 1099OID, we will file
criminal conviction review application with the ATTORNEY GENERAL. We will NOT concede
under any circumstances. STATE AGENTS are being processed for exceeding THEIR authority and
acting without jurisdiction to initiate any charges, we know we all are equal under the law. Hear our
prayer.

REASONS FOR GRANTING THE PETITION

we have harmed no one. we caused no damage or loss, we have been denied or delayed our
right to due process protected by the Constitution of the United States, our numerous
affidavits filed in our defenses stand unrebutted and truth in case, our plea was not voluntary
and was voided the next day by affidavit, our liberties are currently being unlawfully
restrained. We challenged jurisdiction, challenge remains unanswered. We file this
extraordinary writ in hopes of some positive outcome by lawful individuals who wish to uphold
the due care clause to their oath of office. So far all we have met is forign for profit agents who
conspired directly in front of us and talk just out of earshot to be secret and devious and dirty
handed. Life as we knew it was ripped away without consent, without victim, without valid
warrant December 13th, 2018. we have been irreparably damaged, we demand remedy.
STATE AGENT AARON HURLEY #296 can NOT pretend to be a whore, a pimp, a handler,
or a minor child to entrap a man into tax slavery for 25 years with just a lie. STATE AGENT
AARON HURLEY #296 is a menace to society and needs to be held accountable for ITS'
crimes against us or pull a victim out of its hat to be valid or have any standing claim against
us. All eleven of STATE AGENT RICHARD CARETTI #31357's secret/ not so secret
anymore felony charges are dittos of the original charges or fictitious vicious lies to cause more
harm, more damage and more loss, just for not following the STATE AGENTS narrative.
It was the COBBS AGREEMENT (not the plea agreement we had NOT been forced or
threatened to sign yet) that we wished to withdraw before trial. We would never agree to
abducting a child, we were never looking for a minor, seeking only the company of a younger
adult female. The rest is pure STATE AGENT HURLEYS fiction, we scribbled many changes
onto the PSR in the few minutes we were so gratuitously given to view but not keep before
trial, we always wished to go to trial, we know the first thing that must be established is a
CORPUS DELECTI which STATE AGENTS obviously lack or would have produced to have
a case.
we do not assume anyone in our court system can help us. we don't know if a title three court
even exists anymore. Hense, our last written-in question that needs to be answered. And so, we
are writing OTHER ENTITIES to inquire as to any other non appelate avenues to explore, we
have not been back to the 16th CIRCUIT COURT. Just the thought of returning to 40 North
Main Street, Mount Clemens causes us serious mental anguish. We humbly ask for this writ to
be granted or at least our due process insured.

CONCLUSION

The petition for a writ of certiorari should be granted.

vs

\^\WOOT
Respectfully submitted,
Ja
/

Date:

K><sUce^ to pK-\n(L\p\P\\_2>, ’Mcfcicfi. \;o
-to qsismtc, jAu— ^voiurs v\ns&&&£>

~
AnAV\<JR,1

/ - V- 3oai

. OCJl \a>08>
'

/ Js-T#—

